            Semiannual

            Report to Congress

            April 1, 2013 to

            September 30, 2013




Office Of
inspectOr General




            U.S. SeCURITIeS And


            exChAnGe CommISSIon
                         Office Of inspectOr General

Semiannual RepoRt to CongReSS
                  april 1, 2013–september 30, 2013




 T
          he mission of the Office of Inspector General (OIG) is to prevent and detect fraud,
          waste, and abuse and to promote the integrity, economy, efficiency, and effective­
          ness in the critical programs and operations of the United States (U.S.) Securities
 and Exchange Commission (SEC or agency). This mission is best achieved by having an
 effective, vigorous, and independent office of seasoned and talented professionals. Those
 individuals carry out the OIG’s mission by performing these functions:

 •	   conducting	independent	and	objective	audits,	evaluations,	inspections,	investigations,	
      and other reviews of SEC programs and operations;
 •	   preventing	and	detecting	fraud,	waste,	abuse,	and	mismanagement	in	SEC	programs	
      and operations;
 •	   identifying	vulnerabilities	in	SEC	systems	and	operations	and	recommending	
      constructive solutions;
 •	   offering	expert	assistance	to	improve	SEC	programs	and	operations;
 •	   communicating	timely	and	useful	information	that	facilitates	management	
      decisionmaking and the achievement of measurable gains; and
 •	   keeping	the	Commission	and	Congress	fully	and	currently	informed	of	significant	
      issues and developments.




                                                 APRIL 1, 2013 – SEPTEMBER 30, 2013             |   i
                                     ContentS


messaGe frOm the inspectOr General . . . . . . . . . . . . . . . . . . . . . . . . . 1


manaGement and administratiOn . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Agency Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
OIG Staffing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
OIG Outreach . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


cOnGressiOnal requests and briefinGs . . . . . . . . . . . . . . . . . . . . . . . . 5


the inspectOr General’s statement On the sec’s
manaGement and perfOrmance challenGes . . . . . . . . . . . . . . . . . . . . 6
Information Security . . . . .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   6
Procurement and Contracting      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   7
Financial Management . . . .     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   7
Human Capital Management .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   8


cOOrdinatiOn with Other Offices Of inspectOr General . . . . . . . . . . . . 9


audits and evaluatiOns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


Audits and Evaluations Conducted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
   Implementation of the Current Guidance on Economic Analysis in
        SEC Rulemakings (Report No. 516) . . . . . . . . . . . . . . . . . . . . . . . . . . 11
    Use of the Current Guidance on Economic Analysis in SEC Rulemakings
        (Report No. 518) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


Pending Audits and Evaluations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
    Review of the SEC’s 2013 Federal Information Security
        Management Act (FISMA) Requirements . . . . . . . . . . . . . . . . . . . . . . . . 13
    Audit of Government Purchase Card and Convenience Check
       Operations and Practices at the SEC . . . . . . . . . . . . . . . . . . . . . . . . . . 13




                                                                         APRIL 1, 2013 – SEPTEMBER 30, 2013                                                                  |   iii
             Assessment of the SEC’s Physical Security Program . . . . . . . . . . . . . . . . . . . . . 14

             Assessment of the Sanitization of the SEC’s Information System Media . . . . . . . . . . 14

             Assessment of the SEC’s Hiring and Promotion Practices for Senior Level Staff . . . . . . 14


         investiGatiOns. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

         Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   . . . . 15

         Investigations Conducted . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   . . . . 15

             Investigation of Contract and Ethics Violations (Report No. OIG-576) . . . . . .         . . . . 15

             Alleged Prohibited Personnel Practices and Improper Telework Arrangements

                  (Case No. OIG-583) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      .   .   .   . 16

             Allegations of Prohibited Personnel Practices (Report No. OIG-586) . . . . . . .         .   .   .   . 16

             Allegations of False Statements (Report No. OIG-587) . . . . . . . . . . . . . .         .   .   .   . 16

             Allegations of Privacy Act Violations (Report No. OIG-588) . . . . . . . . . . .         .   .   .   . 16

             Alleged Leak of Information Contained in an OIG Report (Case No. OIG-590) .              .   .   .   . 17

             Violations of SEC Ethics Rules (Report No. OIG-594) . . . . . . . . . . . . . .          .   .   .   . 17



         review Of leGislatiOn and reGulatiOns. . . . . . . . . . . . . . . . . . . . . . . . 18



         manaGement decisiOns . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

         Status of Recommendations with No Management Decisions . . . . . . . . . . . . .         .   .   .   .   . 18

         Revised Management Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . . .     .   .   .   .   . 18

         Agreement with Significant Management Decisions . . . . . . . . . . . . . . . . . .      .   .   .   .   . 18

         Instances Where the Agency Refused or Failed to Provide Information to the OIG . .       .   .   .   .   . 18



         tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

         Table 1 List of Reports: Audits and Evaluations. . . . . . . . . . . . . . . . . . . . . . . . . 19

         Table 2 Reports Issued with Costs Questioned or Funds Put to

                      Better Use (Including Disallowed Costs) . . . . . . . . . . . . . . . . . . . . . . 19

         Table 3 Reports with Recommendations on Which Corrective Action

                    Has Not Been Completed. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

         Table 4 Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

         Table 5 Summary of Complaint Activity. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

         Table 6 References to Reporting Requirements of the

                     Inspector General Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





iv   |   OIG SEMIANNUAL REPORT TO CONGRESS
appendix a. peer reviews Of OiG OperatiOns . . . . . . . . . . . . . . . . . . . . . 25
Peer Review of the SEC OIG’s Audit Operations . . . . . . . . . . . . . . . . .                                        .   .   .   .   .   .   . 25
Peer Review of the SEC OIG’s Investigative Operations . . . . . . . . . . . . . .                                      .   .   .   .   .   .   . 25
Peer Review of the Library of Congress OIG’s Audit Operations . . . . . . . . .                                        .   .   .   .   .   .   . 25
Peer Review of the Federal Election Commission OIG’s Investigative Operations.                                         .   .   .   .   .   .   . 26


appendix b. OiG sec emplOyee suGGestiOn prOGram annual repOrt . . . . . . 27
Overview . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 27
Summary of Employee Suggestions and Allegations        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 27
Examples of Suggestions and Allegations . . . . . .    .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 28
Conclusion . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 30




                                                  APRIL 1, 2013 – SEPTEMBER 30, 2013                                                                  |   v
                            meSSage fRom the
                           inSpeCtoR geneRal



                               I
                                      am pleased to present this Semiannual Report to Con­
                                      gress as Inspector General (IG) of the U.S. Securities and
                                      Exchange Commission (SEC or agency). This report
                                describes the work of the SEC Office of Inspector General
                                (OIG) from April 1, 2013, to September 30, 2013. It also
                                reflects our dual responsibility to report independently to
                                both the Commission and Congress. The audits, reviews, and
investigations that we describe illustrate the OIG’s efforts to promote the efficiency
and effectiveness of the SEC.

This Semiannual Report covers my first full                during the coming months to improve the OIG’s
6-month reporting period as the SEC IG since being         audit and investigative capabilities. I am working
sworn in on February 11, 2013. When I arrived, the         closely with the SEC Office of Human Resources to
SEC OIG had been operating with several staffing           fill critical positions as quickly as possible.
deficiencies. I am pleased to report that in the past 6
months we have hired two key senior leaders who            The OIG leadership team continues to review and
have greatly improved the efficiency and effective­        strengthen our internal processes and procedures
ness of the SEC OIG. We hired a Deputy IG who              to ensure that we are an effective, responsive entity.
brings many years of knowledge of the SEC and the          To that end, we have recently issued revised poli­
IG community, and we hired an Assistant Inspector          cies and procedures for investigations, and we are
General for Investigations with extensive experience       working to implement new automated content
as a criminal investigator and supervisor.                 management systems that will improve our effi­
                                                           ciency and streamline our processes for both the
Nonetheless, the SEC OIG continues to face a               Office of Audits and the Office of Investigations.
shortage in both its audit and investigative staff
and is currently operating at about 70 percent of its      In July 2013, we issued an SEC administrative
capacity. I will continue to focus on adding OIG staff     regulation entitled “Roles, Authority, and Respon-


                                                          APRIL 1, 2013 – SEPTEMBER 30, 2013                 |   1
sibilities of the Office of Inspector General.” This   The SEC OIG Office of Investigations completed
regulation outlines the roles, authorities, and        eight investigations during the reporting period
responsibilities of the SEC OIG. It also describes     about various topics, including the unauthorized
the obligation of all SEC employees to cooperate       disclosure of nonpublic information, financial con­
fully with the OIG and ensure access to records and    flicts of interest, and violations of the Privacy Act
personnel that the OIG needs during its investiga­     of 1974. Our investigative reports and memoranda
tions, audits, evaluations, and other activities, as   resulted in five referrals to the agency for consider­
well as management’s role in commenting on and         ation of appropriate administrative action, as well
closing out recommendations made in OIG reports.       as several specific recommendations for improve­
                                                       ments in the agency’s policies and procedures.
During the next semiannual reporting period, we
intend to begin an outreach program to all SEC         In closing, I want to emphasize my firm commit­
employees, including those in SEC regional offices.    ment to executing the SEC OIG’s mission to
These outreach efforts will further enhance the SEC    promote the integrity, efficiency, and effectiveness
employees’ understanding of the role and function      of the programs and operations of the SEC and to
of the OIG and educate employees on the ethics         reporting our findings and recommendations to
requirements and their obligations to report waste,    the agency and Congress. The OIG will improve
fraud, abuse, and corruption to the appropriate        its efficiency and effectiveness by making organiza­
authorities.                                           tional and procedural changes and by increasing its
                                                       staffing resources. We will also continue to work
Although the SEC OIG has faced challenges dur­         collaboratively with SEC management to assist the
ing this semiannual reporting period, the SEC          agency in addressing the challenges it faces in its
OIG staff remains dedicated to promoting the           unique and important mission of protecting inves­
efficiency and effectiveness of the SEC’s programs     tors, maintaining fair, orderly, and efficient mar­
and operations. During the reporting period, the       kets, and facilitating capital formation.
Office of Audits issued two reports that Congress
had requested about the economic analyses that the     I appreciate the significant support that the Office
SEC performs as part of its rulemaking processes.      has received from Congress and the Commission.
The reports contain seven recommendations              We look forward to continuing to work closely
that, if fully implemented, should strengthen the      with the SEC Chair, Commissioners, and employ­
SEC’s economic analyses in support of its rule-        ees, as well as Congress, to increase efficiency and
makings. The Office of Audits and the Office of        effectiveness in the SEC’s programs and operations.
Investigations also worked with SEC management
to close 62 recommendations made in OIG reports
issued during this and previous semiannual report­
ing periods.
                                                                         carl w. hoecker
                                                                         Inspector General




2   |   OIG SEMIANNUAL REPORT TO CONGRESS
                             management and

                              adminiStRation


aGency Overview                                           Protection Corporation (SIPC), and the Financial



T
         he SEC’s mission is to protect investors,        Accounting Standards Board (FASB).
         maintain fair, orderly, and efficient markets,
         and facilitate capital formation. The SEC        The SEC also reviews disclosures and financial
strives to promote a market environment that is           statements of approximately 9,100 reporting com­
worthy of the public’s trust and characterized by         panies. Recently, the agency’s responsibilities have
transparency and integrity. Its core values consist of    increased,	with	new	or	expanded	jurisdiction	over	
integrity, accountability, effectiveness, teamwork,       securities-based derivatives, hedge fund and other
fairness, and commitment to excellence. The SEC’s         private fund advisers, credit rating agencies, munici­
goals are to foster and enforce compliance with the       pal advisors, clearing agencies, and a new regime for
Federal securities laws; establish an effective regula­   crowdfunding offerings.
tory environment; facilitate access to the information
investors need to make informed investment deci­          The SEC accomplishes its mission through 5 main
sions; and enhance the SEC’s performance through          divisions—Corporation Finance, Enforcement,
effective alignment and management of human               Investment Management, Trading and Markets, and
resources, information, and financial capital.            Economic and Risk Analysis—and 21 functional
                                                          offices. The SEC’s headquarters is in Washington,
SEC staff members monitor and regulate a securi­          D.C., and there are 11 regional offices located
ties industry comprising more than 25,000 market          throughout the country. As of the end of fiscal
participants, including about 10,600 investment           year (FY) 2013, the SEC employed 4,023 fulltime
advisers, 9,700 mutual funds and exchange-traded          equivalent (FTE) employees, consisting of 3,903
funds, 4,600 broker-dealers, and approximately            permanent and 120 temporary FTE employees.
460 transfer agents. The SEC also oversees 17
national securities exchanges, 7 active registered        OiG staffinG
clearing agencies, and 10 nationally recognized           In May 2013, the Inspector General appointed the
statistical rating organizations (NRSROs), as well        Deputy Inspector General, and in July 2013, the
as the Public Company Accounting Oversight                Inspector General appointed the Assistant Inspector
Board (PCAOB), the Financial Industry Regula­             General for Investigations. Their biographies are on
tory Authority (FINRA), the Municipal Securities          the OIG’s website at http://www.sec.gov/about/oig/
Rulemaking Board (MSRB), the Securities Investor          inspector_general_admin_bios.shtml. Although the




                                                          APRIL 1, 2013 – SEPTEMBER 30, 2013                |    3
OIG filled these key leadership roles, several audit     In addition, the OIG developed and issued to all
and investigative staff positions are vacant. Filling    SEC staff an administrative regulation entitled,
those vacancies is a priority for the OIG.               “Roles, Authority, and Responsibilities of the Office
                                                         of Inspector General.” This regulation sets forth in
OiG Outreach                                             detail the roles, authority, and responsibilities of the
During the semiannual reporting period, the IG           SEC OIG, as well as the roles and responsibilities
regularly met with the Chair, Commissioners, and         of all SEC employees regarding OIG investigations,
SEC division and senior officers to foster open com­     audits, evaluations, and other activities. It describes
munication at all levels between the OIG and the         employees’ obligation to cooperate fully with the
agency. This effort ensures that the OIG is kept up to   OIG and to disclose waste, fraud, abuse, and
date on significant, current matters that are relevant   corruption to the appropriate authorities, including
to the OIG’s work. This regular communication            the OIG.
also allows the OIG and agency management to
work cooperatively to identify the most important        The OIG also intends to begin an outreach pro­
areas for the OIG’s work, as well as the best means      gram to all SEC employees, including those in SEC
of addressing the results of that work. The OIG          regional offices. These outreach efforts will include
continually strives to keep apprised of changes to       integrity awareness briefings designed to enhance
agency programs and operations and will keep SEC         the SEC employees’ understanding of the role and
management informed of the OIG’s activities and          function of the OIG, as well as to educate employees
concerns raised in the course of its work.               on the applicable ethics requirements and their duty
                                                         to report waste, fraud, abuse, and corruption to the
                                                         appropriate authorities.




4   |   OIG SEMIANNUAL REPORT TO CONGRESS
                     CongReSSional

                  ReQueStS and BRiefingS



T
        he OIG continued to keep Congress fully       Committee also asked us to identify the three open
        and currently informed of OIG activities      and unimplemented recommendations that the SEC
        through briefings, reports, meetings, and     OIG considered to be the most important or urgent.
responses to Congressional inquiries. Throughout      In its June 28, 2013, response, the OIG provided
the semiannual reporting period, the Inspector Gen­   the Committee with information on how many
eral and OIG staff briefed Congressional staff and    recommendations were open and unimplemented
discussed with them OIG work and issues impact­       and also identified the three open and unimple­
ing the SEC.                                          mented recommendations that the OIG deemed to
                                                      be the most important or urgent at that time. Two
In addition, on June 17, 2013, the U.S. House of      of the three recommendations were implemented
Representatives Committee on Oversight and Gov­       and closed prior to the end of the reporting period.
ernment Reform asked the OIG for information on       SEC management notified the OIG that it intends
how many OIG recommendations were open and            to implement the third recommendation during the
unimplemented, as well as any estimated cost sav­     first quarter of FY 2014.
ings associated with those recommendations. The




                                                      APRIL 1, 2013 – SEPTEMBER 30, 2013              |   5
the inSpeCtoR geneRal’S Statement

     on the SeC’S management

  and peRfoRmanCe ChallengeS



T
        he Reports Consolidation Act of 2000                            to complete annual security awareness training,
        requires the SEC OIG to identify and report                     information security1 continues to be a management
        annually on the most serious management                         challenge at the SEC. Specifically, OIT’s compliance
challenges that the SEC faces. To identify manage­                      with the Federal Information Security Management
ment challenges, we routinely review past and                           Act (FISMA) remains a management challenge
ongoing audit, investigation, and evaluation work                       this year because OIT has not fully addressed the
to identify material weaknesses, significant deficien­                  findings and recommendations that were identified
cies, and vulnerabilities. We compiled this statement                   in the OIG’s previously issued FISMA reports. For
on the basis of the work that we completed over                         example, in the 2012 FISMA Executive Summary
the past year; our knowledge of the SEC’s programs                      Report, Report No. 512, issued March 29, 2013,
and operations; and feedback from SEC staff and                         the OIG found that OIT had not fully addressed
the U.S. Government Accountability Office (GAO)                         three findings and six recommendations that were
auditors who conduct the SEC’s annual financial                         included in the 2011 FISMA Executive Summary
statement audit.                                                        Report, Report No. 501, issued February 2, 2012.
                                                                        The OIG found that OIT had not fully implemented
infOrmatiOn security                                                    compliance scanning for network devices, multifac­
Although the Office of Information Technology                           tor authentication for the SEC’s personal identity
(OIT) has established policies for handling and safe­                   verification program, and baseline security controls
guarding sensitive and nonpublic information and                        that are tailored for specific information technology
requires SEC employees, contractors, and interns                        (IT) systems.



1   The Federal Information Security Management Act (FISMA) provides that “[t]he term ‘information security’ means protecting
    information and information systems from unauthorized access, use, disclosure, disruption, modification, or destruction in order to
    provide—(A) integrity, which means guarding against improper information modification or destruction, and includes ensuring infor­
    mation nonrepudiation and authenticity; (B) confidentiality, which means preserving authorized restrictions on access and disclosure,
    including means for protecting personal privacy and proprietary information; and (C) availability, which means ensuring timely and
    reliable access to and use of information.” 44 U.S.C. § 3542(b)(1).




6   |   OIG SEMIANNUAL REPORT TO CONGRESS
While the conditions found in the 2012 FISMA                          services and to avoid the contracting out of inher­
report could expose the SEC to threats should                         ently governmental functions.
layered controls break down, OIT made progress
this year in addressing the findings and recommen­                    Despite those improvements, the OIG has found
dations that posed a greater risk to the SEC’s IT                     that the SEC’s monitoring of its contracts is a con­
environment. However, OIT has not fully addressed                     tinuing challenge. Specifically, the OIG has obtained
some outstanding significant findings and recom­                      information indicating that there may be insufficient
mendations.                                                           controls over the tracking of funds or the approval
                                                                      of invoices for certain contracts and/or interagency
Information security is a particularly difficult man­                 agreements, as well as inconsistencies between the
agement challenge because the SEC not only shares                     nature of the services provided and the requirements
information internally among its divisions and                        of the applicable task order. We are planning audit
offices, but also shares information externally with                  work in this area and will continue to monitor it
the regulated community and financial regulators.                     closely.
This sharing of external information is necessary to
accomplish the SEC’s mission of protecting inves­                     financial manaGement
tors and maintaining fair, orderly, and efficient                     The GAO’s audit of the SEC’s FY 2012 finan­
markets that facilitate capital formation. We will                    cial statements2 found that the SEC’s financial
continue to review OIT’s security controls over the                   statements were fairly presented, in all material
SEC’s information systems during the upcoming                         respects, in conformity with U.S. generally accepted
annual FISMA assessment. We will also continue                        accounting principles. That audit also found that,
to review the SEC’s handling of sensitive, nonpublic                  although internal controls could be improved, the
information.                                                          SEC maintained, in all material respects, effective
                                                                      internal controls over financial reporting. How­
prOcurement and cOntractinG                                           ever, the GAO identified significant deficiencies in
Since we first identified the SEC’s process for                       accounting for budgetary resources and property
procurement and contracting as a management                           and equipment. The GAO found that these defi­
challenge in FY 2008, the Office of Acquisitions                      ciencies are related, in part, to the SEC’s transition
(OA) has improved its internal controls in this area.                 of its core financial system to the Department of
Most recently, in July 2013, OA published a revised                   Transportation’s Enterprise Service Center Federal
administrative regulation and operating procedure                     Shared Service Provider (FSSP).
on the management and administration of service
contracts. The revised regulation provides direc­                     In FY 2012, the OIG identified the inherent risks
tion for the avoidance of contracting for inherently                  that are associated with transitioning to a new
governmental functions or personal services, as well                  financial system as a management challenge. In its
as appropriate management procedures for acquir­                      management report to the SEC issued in April 2013,
ing and managing functions closely associated with                    the GAO noted the following:
inherently governmental functions and critical func­
tions. The operating procedure is designed to assist                        [I]n April 2012, SEC migrated its core financial
the SEC in addressing service contracts and personal                        system operations to a shared service provider.




2   GAO’s FY 2012 financial statement audit included SEC’s general purpose and Investor Protection Fund (IPF) financial statements.




                                                                     APRIL 1, 2013 – SEPTEMBER 30, 2013                           |   7
        . . . [W]e identified new control deficiencies dur­             describing SEC’s culture, many current and for­
        ing our fiscal year 2012 audit related to SEC’s                 mer SEC employees cited low morale, distrust
        monitoring controls over the service provider’s                 of management, and the compartmentalized,
        core financial system operations, including                     hierarchical, and risk-averse nature of the orga­
        those related to budgetary accounting and                       nization. According to an Office of Personnel
        reporting activities.3                                          Management (OPM) survey of federal employ­
                                                                        ees, SEC currently ranks 19 of 22 similarly
Further, the GAO stated that the “SEC did not                           sized federal agencies based on employee satis­
develop monitoring procedures over property and                         faction and commitment. GAO’s past work on
equipment transactions recorded by its service                          managing for results indicates that an effective
provider at the time of its transition to the FSSP’s                    personnel management system will be critical
general ledger system.”4 We will continue to moni­                      for transforming SEC’s organizational culture.5
tor the SEC’s use of the FSSP.
                                                                   One key area that the GAO report highlighted as
human capital manaGement                                           needing improvement was workforce planning. The
Section 962 of the Dodd-Frank Wall Street Reform                   GAO noted that the “SEC has not yet developed
and Consumer Protection Act (Dodd-Frank Act)                       a comprehensive workforce plan” and, as a result,
required the GAO to report on the SEC’s personnel                  “will not be able to make well-informed decisions
management. In its report issued in July 2013, the                 on how to best meet current and future agency
GAO concluded the following:                                       needs.”6 The GAO further found that while the SEC
                                                                   has made efforts to improve communication and
        Based on analysis of views from Securities and             collaboration, it “has not yet fully addressed barri­
        Exchange Commission (SEC) employees and                    ers.”7 The SEC has recently launched the SEC Local
        previous studies from GAO, SEC, and third                  Labor Management Forum under Executive Order
        parties, GAO determined that SEC’s organi­                 13522, Creating Labor-Management Forums to
        zational culture is not constructive and could             Improve Delivery of Government Services, to foster
        hinder its ability to effectively fulfill its mis­         a cooperative and productive form of labor-man­
        sion. Organizations with constructive cultures             agement relations. The OIG will continue to review
        are more effective and employees also exhibit              the progress of this and other efforts to improve the
        a stronger commitment to mission focus. In                 SEC’s management of human capital.




3   GAO-13-274R, Management Report: Improvements Needed in SEC’s Internal Controls and Accounting Procedures, April 4, 2013,
    p. 3 (footnote omitted).
4   Id., p. 7.
5   GAO-13-621, Securities and Exchange Commission: Improving Personnel Management Is Critical for Agency’s Effectiveness, July
    2013.
6   Id.
7   Id.




8   |    OIG SEMIANNUAL REPORT TO CONGRESS
          CooRdination With otheR

         offiCeS of inSpeCtoR geneRal



D
         uring this semiannual reporting period, the    General community on issues involving criminal
         SEC OIG coordinated its activities with        investigations and criminal investigations person­
         those of other OIGs, as required by Section    nel and establish criminal investigative guidelines.
4(a)(4) of the Inspector General Act of 1978, as        The Investigations Committee revised, and issued
amended. Specifically, the OIG participated in the      in June 2013, the CIGIE Guidelines on Undercover
meetings and activities of the Council of Inspectors    Operations.
General on Financial Oversight (CIGFO), which
was established by the Dodd-Frank Act.                  Moreover, the Counsel to the IG participated in the
                                                        activities of the Council of Counsels to the Inspec­
The chairman of CIGFO is the IG of the Depart­          tors General. The Council is an informal organi­
ment of Treasury. Other members of the Council are      zation of OIG attorneys, throughout the Federal
the Inspectors General of the Board of Governors of     government, who meet monthly and coordinate and
the Federal Reserve System, the Commodity Futures       share information.
Trading Commission, the Department of Housing
and Urban Development, the Federal Deposit Insur­       The OIG Office of Audits also participated in vari­
ance Corporation, the Federal Housing Finance           ous CIGIE activities. For example, a representative
Agency, the National Credit Union Administration,       of the Office of Audits was a member of a working
and the SEC, and the Special Inspector General          group that is revising the Guide for Conducting
for the Troubled Asset Relief Program. Under the        External Peer Reviews of the Audit Organizations
Dodd-Frank Act, CIGFO is required to meet at            of Federal Offices of Inspector General. The Office
least quarterly to facilitate the sharing of informa­   of Audits also worked on the curriculum review
tion. Those meetings focus on issues applicable to      conference for the CIGIE introductory auditor
the broader financial sector and ways to improve        training program. In addition, the Office of Audits
financial oversight.                                    participated in the CIGIE Federal Audit Executive
                                                        Council’s Audit Policies and Practices Committee.
In addition, the IG attended meetings of the Council
of the Inspectors General on Integrity and Efficiency   Finally, in the semiannual reporting period, OIG
(CIGIE) and served as the Chairman of the CIGIE         staff assisted another OIG in comparing its busi­
Investigations Committee. The mission of the            ness practices and performance metrics to those of
Investigations Committee is to advise the Inspector     other OIGs (i.e., “benchmarking”), in coordination




                                                        APRIL 1, 2013 – SEPTEMBER 30, 2013               |    9
with CIGIE, in two areas: 1) measuring savings              efforts: 1) the IG’s presentation at an SEC town hall
and return on investment of inspections, evalua­            meeting; 2) the OIG FY 2014 audit planning process
tions, and performance audits; and 2) developing            (which included meetings with almost all of the SEC
an OIG outreach program at multiple agency levels           divisions and offices); 3) publication of a new OIG
to provide information about the results of OIG             regulation, for which the OIG provided staff with
activities	and	to	solicit	input	for	future	OIG	projects.	   an email address for submitting questions about the
To support these benchmarking efforts, the SEC              regulation; and 4) planned integrity awareness brief­
OIG shared information on various OIG outreach              ings in SEC regional offices.




10   |   OIG SEMIANNUAL REPORT TO CONGRESS
                  auditS and eValuationS


Overview                                                   The primary purpose of an audit or evaluation is to



T
         he Inspector General Act of 1978, as              review the agency’s past operations and performance
         amended, requires OIGs to conduct and             to determine compliance with applicable laws, rules,
         supervise independent audits and evalua­          and regulations. At the completion of an audit or
tions of their agencies’ programs, operations, and         evaluation, the OIG issues an independent report in
activities. The SEC Office of Audits focuses on            which it identifies any deficiencies and makes recom­
conducting, coordinating, and supervising indepen­         mendations to correct those deficiencies or increase
dent audits and evaluations of the SEC’s internal          efficiencies in an SEC program.
programs and operations at its headquarters and
11 regional offices. The Office of Audits also hires,
as	needed,	contractors	and	subject	matter	experts,	        audits and evaluatiOns
who provide technical expertise in specific areas, to      cOnducted
perform work on behalf of the OIG. In addition, the
Office of Audits monitors the SEC’s progress in tak­       implementation of the current Guidance
ing corrective actions on recommendations in OIG           on economic analysis in sec rulemakings
audit and evaluation reports.                              (report no. 516)
                                                           In March 2012, the SEC issued guidance for staff to
Each year, the Office of Audits prepares an annual         follow in conducting economic analysis in agency
audit plan. The plan includes work that the Office         rulemaking that contained both substantive and pro­
selects for audit or evaluation on the basis of risk       cess requirements (referred to as the “Current Guid­
and materiality, known or perceived vulnerabilities        ance”). Beginning in December 2012, in response
and inefficiencies, resource availability, and informa­    to a Congressional request, the OIG evaluated the
tion received from Congress, internal SEC staff, the       SEC’s implementation of the Current Guidance. In
GAO, and the public.                                       response to that Congressional request, the SEC
                                                           OIG examined whether the SEC had 1) used the
The Office conducts its audits in compliance with          Current Guidance since its issuance in March 2012
Generally Accepted Government Auditing Standards           to develop economic analyses in its rulemakings;
(GAGAS) issued by the Comptroller General of the           2) developed procedures to implement the Current
United States. OIG evaluations follow applicable           Guidance; 3) improved its process for economic
CIGIE Quality Standards for Inspections and Evalu­         analysis; and 4) incorporated comments from the
ations and GAGAS standards.                                OIG and others in the Current Guidance.


                                                          APRIL 1, 2013 – SEPTEMBER 30, 2013               |   11
The OIG issued the final report on June 6, 2013. In     for economic analysis, it also acknowledges the need
that report, the OIG found that the SEC had used        for flexibility in the context of particular rulemak­
the Current Guidance since its issuance in March        ings. We found that the SEC rules in our sample fol­
2012 to develop economic analyses for rulemakings.      lowed the spirit and intent of the Current Guidance.
However, the OIG determined that the SEC had not
issued written operating procedures implementing        All of the rules that we evaluated met two of the
that Guidance. The OIG also found that the SEC          four substantive requirements specified in the Cur­
has taken steps to improve its process for economic     rent	Guidance—identifying	a	justification	for	the	
analysis by requiring the participation of specially    rule and considering alternatives to the rule—and the
qualified SEC economists in economic analysis and       one process requirement for integrating economic
the development of a formal review and concurrence      analyses into SEC rulemakings. Further, we found
process for economic analysis. Finally, we found that   no notable differences in economic methodologies in
the SEC had incorporated, into its Current Guid­        support of rulemakings across rulemaking divisions.
ance, recommendations that it had received from the
SEC OIG’s followup review of Dodd-Frank rule-           As to the other two substantive requirements in the
making, a GAO report on Dodd-Frank rulemaking,          Current Guidance, we determined that some rules
and a U.S. Court of Appeals opinion that vacated an     could have better clarified and specified the baselines
SEC rule.                                               in the economic analysis section of the rule releases
                                                        and that some descriptions of baseline conditions
In its report, the OIG made one recommendation—         did not specifically address the state of efficiency,
that the SEC issue written operating procedures for     competition, and capital formation. In addition,
its economic analysis process implementing the Cur­     we found that only 1 of the 12 rules in our sample
rent Guidance. The intent of the recommendation         included a quantification of benefits of the regula­
was to strengthen that process. Management agreed       tory action. Moreover, where the rulewriting team
to implement the recommendation, and the SEC            determined that the quantification of certain costs
Chair has issued written “Operating Procedures for      or benefits was not practicable, the reasons for that
Economic Analysis to Implement the Current Guid­        determination were not always fully documented in
ance.” As a result, the recommendation has been         the release text.
closed. The OIG’s report is available on its website
at http://www.sec-oig.gov/Reports/Audits                We also found that 1) the Financial Industry
Inspections/2013/516.pdf.                               Regulatory Authority, other self-regulatory organi­
                                                        zations	under	the	SEC’s	jurisdiction,	and	the	Public	
use of the current Guidance on                          Company Accounting Oversight Board are not
economic analysis in sec rulemakings                    required to follow the SEC’s Current Guidance in
(report no. 518)                                        their rulemakings; and 2) it would be beneficial for
In response to the Congressional request discussed      the SEC to explore estimation methodologies and
in the Report No. 516 summary above, the OIG            practices that other Federal administrative agencies
contracted the services of HDR Engineering, Inc., to    use in their rulemakings.
conduct a more extensive evaluation of the SEC’s use
of the Current Guidance in its rulemakings.             The OIG issued the final report on June 6, 2013, and
                                                        made six recommendations intended to strengthen
The evaluation focused on whether economic analy­       the SEC’s economic analysis process. For example,
ses in SEC rulemakings complied with the principles     we recommended that, in consultation with the
and policies of the Current Guidance. While the         SEC rulemaking divisions and offices, the Division
Current Guidance sets forth certain requirements        of Risk, Strategy, and Financial Innovation (now



12   |   OIG SEMIANNUAL REPORT TO CONGRESS
called the Division of Economic and Risk Analysis)       On the basis of NIT’s recommendations, we will
develop a general outline for economic analysis sec­     respond to the standardized questions, which all
tions in rule releases. We also recommended that the     executive agencies are required to answer, that are
Division consider whether to create a management         contained in “FY 2013 Inspector General Federal
control, such as a guide, to achieve greater consis­     Information Security Management Act Reporting
tency in presentation of economic analyses.              Metrics.” The contractor will summarize its recom­
                                                         mendations and findings in a report, which we will
SEC management agreed to implement all of the            issue before the end of the next semiannual report­
report’s recommendations and was in the process          ing period.
of doing so at the end of the semiannual reporting
period. The OIG’s report is available on its website     audit of Government purchase card and
at http://www.sec-oig.gov/Reports/Audits                 convenience check Operations and
Inspections/2013/518.pdf.                                practices at the sec
                                                         On October 5, 2012, President Obama signed Public
                                                         Law 112-194, Government Charge Card Abuse
pendinG audits and evaluatiOns                           Prevention Act of 2012 (the Act). The Act requires
                                                         heads of executive agencies that issue and use
review of the sec’s 2013 federal                         purchase cards and convenience checks to establish
information security management act                      and maintain safeguards and internal controls over
(fisma) requirements                                     their usage. The Act also requires the inspector
FISMA requires each Federal agency to develop,           general of each executive agency to conduct peri­
document, and implement an agencywide program            odic assessments to identify and analyze the risks of
that provides security for the information and infor­    illegal, improper, or erroneous uses of purchase cards
mation systems supporting the operations and assets      or convenience checks and to perform analysis or
of the agency. FISMA further requires the agency’s       audits of purchase card transactions, as necessary.
inspector general to independently evaluate and
report annually on how the agency’s chief informa­       The OIG is conducting an audit of the SEC’s
tion officer, senior agency official for privacy, and    government purchase card and convenience check
program officials implement the agency’s informa­        operations	and	practices.	The	objectives	of	the	
tion security program.                                   audit are to:
                                                         •	 determine	whether	the	SEC’s	purchase	card	and	
The OIG hired a contractor, Networking Institute             convenience check programs operate effectively
of Technology, Inc. (NIT), which has information             and are properly managed in compliance with
technology expertise, to conduct the OIG’s FY 2013           governing laws and regulations and agency
FISMA review of the SEC’s information security               policy; and
program. NIT will evaluate and report to us on the       •	 assess	whether	the	SEC’s	purchase	card	and	
following aspects of the SEC’s security program:             convenience check programs’ internal controls
continuous monitoring; configuration management;             have been adequately designed, appropriately
identity and access management; incident response            implemented, and are operating effectively to
and reporting; risk management; security training;           detect misuse, fraud, waste, or abuse by card­
plan of action and milestones process; remote access         holders or others who attempt to manipulate
management; contractor systems; and security                 the programs.
capital planning.
                                                         The OIG will also determine whether the SEC has
                                                         best practices for its purchase card program and



                                                        APRIL 1, 2013 – SEPTEMBER 30, 2013               |   13
whether there are areas that need improvement. We           tion system media, when it leaves the SEC’s control,
expect to issue a final report in the next semiannual       has been properly sanitized of 1) sensitive/nonpublic
reporting period.                                           information, 2) controlled unclassified information,
                                                            and 3) personally identifiable information; or, that the
assessment of the sec’s physical                            information media has been properly disposed of, if it
security program                                            cannot	be	sanitized.	The	objectives	of	the	evaluation	
In 2012, the OIG Office of Investigations completed         are to examine whether the SEC:
an investigation of security violations at an SEC facil­    •	 adheres	to	its	governing	policies	and	procedures	
ity. The Office of Investigations referred the matter to         and Federal standards and policies for the
the Office of Audits, for consideration of appropriate           sanitization of information system media and
audit work, on the basis of deficiencies that it had             portable and removable storage devices that are
identified in the physical security of SEC facilities.           used on SEC’s network;
                                                            •	 ensures	that	sensitive/nonpublic	information	
The OIG has hired a contractor to assess the SEC                 or personally identifiable information data
Office of Support Operations (OSO) physical secu­                is removed from information system media
rity program’s controls to safeguard SEC person­                 devices that are no longer being used; and
nel and property. Specifically, the assessment will         •	 has	internal	controls	and	testing	methods	for	
examine 1) the OSO’s compliance with governing                   the sanitization of information system media
physical security Federal laws and regulations and               that are effective in minimizing the risk that
applicable SEC policy and procedures; 2) the effec­              sensitive/nonpublic information or personally
tiveness of physical security policies and procedures;           identifiable information is not unintentionally
and 3) the adequacy of preventive internal control               retained on information system media that are
procedures and practices to oversee physical security            no longer being used.
at SEC facilities. The contractor will summarize its
findings in a report, which the OIG will issue, on          After completing its assessment, the contractor will
completion of the assessment.                               summarize its findings in a report, which the OIG
                                                            will issue.
assessment of the sanitization of the
sec’s information system media                              assessment of the sec’s hiring and
The National Institute of Standards and Technology          promotion practices for senior level staff
(NIST) issued guidelines (NIST Special Publication          The OIG is conducting an audit of the SEC’s practic­
800-88, Guidelines for Media Sanitization, September        es for hiring senior level officials. We have completed
2006) that instruct agencies to properly sanitize digital   our fieldwork and are drafting the audit report. The
and nondigital information system media, such as dis­       audit examines whether the SEC Office of Human
kettes, magnetic tapes, external/internal hard drives,      Resources (OHR) adheres to applicable Federal
flash/thumb drives, optical disks, paper/microfilm,         statutes and regulations and has adequate policies
servers, routers, and switches containing sensitive data    and procedures for filling senior level vacancies. The
before the items leave the agency’s control.                audit is also reviewing whether OHR communicates
                                                            its hiring authority, decisions, and changes to the
The OIG hired a contractor to evaluate the SEC’s            appropriate personnel and takes appropriate action
controls for sanitization of information system             on any improper hirings or promotions.
media before the media leaves the SEC’s control.
The contractor will examine whether the SEC has             We expect to issue a final report during the next
effective policies and practices to ensure that informa­    semiannual reporting period.




14   |   OIG SEMIANNUAL REPORT TO CONGRESS
                                 inVeStigationS


Overview                                                   to receive and process tips and complaints about



T
        he Inspector General Act of 1978, as               fraud, waste, or abuse related to SEC programs and
        amended, requires OIGs to conduct inde­            operations. The Hotline allows individuals to report
        pendent investigations of potential miscon­        their allegations to the OIG directly and confidentially.
duct involving their agencies’ programs, operations,
and activities. The SEC Office of Investigations
focuses on investigating allegations of wrongdo­           investiGatiOns cOnducted
ing related to the SEC’s programs and operations
and may address administrative, civil, and criminal        investigation of contract and ethics
violations	of	laws	and	regulations.	The	subject	of	        violations (report no. OiG-576)
an OIG investigation can be any agency employee,           The OIG investigated allegations that a former SEC
contractor, or consultant, or any person or entity         headquarters manager authorized a contract with
involved in alleged wrongdoing affecting the SEC’s         a technology company to provide certain services
programs and operations.                                   at SEC Headquarters by individuals with whom
                                                           the manager was affiliated in a personal capacity,
If an investigation reveals evidence of criminal activ­    even though the SEC had an existing contract with
ity, the Office of Investigations refers the matter to     another entity to provide these types of services.
the Department of Justice for possible prosecution
or recovery of monetary damages and penalties. If          The OIG found evidence that the former manager
the Office of Investigations finds evidence of mis­        had failed to disclose to the contracting officer that
conduct, it forwards a report of investigation to the      he had personal affiliations with the individuals
appropriate management officials for consideration         to be employed under the contract and that the
of disciplinary or remedial action.                        manager had provided a list of individuals for the
                                                           technology company to hire. Although the awarded
The Office of Investigations adheres to the Council        contract included several option years and was for
of the Inspectors General on Integrity and Efficien­       a maximum award amount of $3.5 million, the
cy’s Quality Standards for Investigations and appli­       SEC canceled the contract after only approximately
cable guidelines issued by the U.S. Attorney General.      $5,800 was billed because the employment at SEC
                                                           facilities of the individuals hired under the contract
The Office of Investigations manages the OIG Hot-          violated a policy of their primary employer, which is
line, which is available 24 hours a day, 7 days a week,    an entity other than the technology company.


                                                          APRIL 1, 2013 – SEPTEMBER 30, 2013                  |   15
The former manager resigned before the OIG’s            allegations of prohibited personnel
investigation was completed, and the United States      practices (report no. OiG-586)
Attorney’s Office declined prosecution of the mat­      The OIG investigated allegations that certain SEC
ter. Therefore, the OIG determined that no further      senior officers had violated the merit system prin­
investigative action was warranted and closed the       ciples and committed prohibited personnel practices
matter.                                                 by hiring former colleagues to work at the SEC.

alleged prohibited personnel practices                  During its investigation, the OIG did not identify
and improper telework arrangements                      evidence of any intent to provide an improper
(case no. OiG-583)                                      advantage or preference in hiring. However, the
The OIG investigated a complaint of improper            OIG found that language in some of the SEC docu­
practices by certain former managers at SEC             ments that one of the senior officers had prepared
headquarters, including a promotion process that        and used for hiring was similar to language in mate­
allegedly violated the merit systems principles and     rials that the senior officer had received from her
the alleged use of improper telework arrangements.      former colleagues who ultimately applied for and
Specifically, the complaint alleged that former         obtained the positions. The OIG referred its report
OHR managers 1) developed, approved, and used           to management for consideration of administrative
vacancy announcements to facilitate the improper        action.
promotions of two headquarters’ employees who
each had arrangements to telework from distant          allegations of false statements
locations 5 days per week; and 2) permitted those       (report no. OiG-587)
employees to telework 100 percent from remote           The OIG investigated allegations that a former SEC
locations while collecting geographic locality pay      Chairman provided inaccurate testimony during a
that was not aligned with their actual physical loca­   hearing before a Congressional subcommittee in
tions or residences.                                    July 2011.

The OIG investigation did not substantiate a viola­     The OIG did not identify evidence that the Chair­
tion of the merit system principles or instances of     man’s testimony was intentionally inaccurate. The
prohibited personnel practices by former man­           OIG found that the contemporaneous documenta­
agement in the promotion of either employee.            tion (i.e., written record of events as they occurred)
Additionally, the OIG found that the 5-day, long-       and recollections of the witnesses were generally
distance telework arrangements—such as those in         consistent with the former Chairman’s testimony.
question—were permissible under relevant SEC            The U.S. Attorney’s Office declined prosecution of
policies and procedures. However, the OIG found         the matter. Therefore, the OIG concluded its inves­
that one teleworking employee’s official duty station   tigation.
was determined improperly and that, as a result,
the employee had been paid incorrectly. During the      allegations of privacy act violations
prior semiannual reporting period, the OIG had          (report no. OiG-588)
issued an investigative memorandum to manage­           The OIG investigated allegations that a former SEC
ment (IM-13-0001) to address that issue, as well as     employee had violated the Privacy Act of 1974
a similar issue identified in another investigation.    by disclosing certain SEC employees’ personally
That memorandum is available on the OIG website         identifiable information (PII). The OIG conducted
at http://www.sec-oig.gov/Reports/OOI/2013/             this	investigation	jointly	with	the	OIG	for	the	U.S.	
IM-13-001(Long-Distance-Telework).pdf.                  Agency for International Development (USAID).




16   |   OIG SEMIANNUAL REPORT TO CONGRESS
The USAID OIG had notified the SEC OIG that                of emails and interviews of SEC staff, the OIG did
the former SEC employee, who was working for a             not identify the individual who had provided the
Federal agency under the USAID OIG’s oversight,            information to the media outlet. On July 15, 2013,
had uploaded files that contained SEC employees’           the OIG issued an investigative memorandum to
PII to his new agency’s computer system.                   management (IM-13-0002) to address the unauthor­
                                                           ized disclosure of nonpublic information and then
The OIG did not identify any information that              concluded this investigation. That memorandum,
would support a criminal violation of the Privacy          which made four recommendations for improve­
Act, and the U.S. Attorney’s Office declined pros­         ments in controls relating to nonpublic and sensi­
ecution of the case. The former SEC employee               tive information, is available on the OIG website
admitted that he took the files from the SEC’s             at http://www.sec-oig.gov/Reports/OOI/2013/IM­
computer system but stated that he did not intend          13-002(Disclosure_of_Nonpublic_Information).pdf.
to take PII and was not aware that the data he took
from the SEC contained PII. The OIG also did not           violations of sec ethics rules
identify any information showing that the SEC PII          (report no. OiG-594)
was made public or circulated beyond the former            The OIG investigated the failure of an SEC Senior
SEC employee’s personal thumb drive and current            Officer (SO) to report, on financial disclosure state­
Federal employer’s computer network.                       ments, the securities holdings of the SO’s spouse and
                                                           to comply with the SEC’s supplemental ethics rules
The	OIG	reported	the	findings	of	the	joint	investiga­      about employee financial transactions. The SEC
tion to SEC management on April 30, 2013. On               Ethics Counsel had referred this matter to the OIG.
July 8, 2013, the SEC Chief Information Officer
notified possibly affected individuals of the potential    Through its investigation, the OIG found evidence
data breach but also informed them that it did not         that the SO had not complied with various pro­
appear that any third party had inappropriately            visions of the SEC’s Supplemental Ethics Rules
accessed their PII.                                        because, for example, 1) the SO’s spouse held a
                                                           security interest (“imputed” to the SO by virtue of
alleged leak of information contained                      their marriage) in entities directly regulated by the
in an OiG report (case no. OiG-590)                        SEC; 2) the SO did not preclear, report, or certify
The OIG investigated an alleged leak of information        the	vast	majority	of	the	spouse’s	financial	holdings;	
contained in a report of investigation that the OIG        and 3) the SO did not report all assets required to
previously issued to the SEC about the mismanage­          be disclosed on the financial disclosure forms. The
ment of a computer security lab in the SEC Divi­           OIG also identified evidence that the SO had worked
sion of Trading and Markets. Specifically, articles        on one matter that involved former employees of
published by a third-party media outlet discussed          a company in which the SO’s spouse owned stock.
information that SEC management considered to              Further, the OIG found that the SO had disclosed
be nonpublic and that SEC management previously            nonpublic information to the SO’s spouse.
had redacted from the version of the investigative
report that was made available outside the SEC.            The United States Attorney’s Office declined pros­
                                                           ecution of the matter and, on September 3, 2013,
The OIG found that the articles published by the           the OIG reported the findings of its investigation
media outlet contained information that had been           to SEC management. Management’s decision on
redacted from the OIG’s report and was not publicly        administrative action was pending at the end of the
available. However, on the basis of the OIG’s review       semiannual reporting period.




                                                          APRIL 1, 2013 – SEPTEMBER 30, 2013               |   17
                         ReVieW of legiSlation

                           and RegulationS

          During this semiannual reporting period, the OIG reviewed and monitored the following legislation:

          p.l. 113-6       Consolidated and Further Continuing Appropriations Act, 2013,
                           Section 3003 (enacted March 26, 2013)

          p.l. 112-194     Government Charge Card Abuse Prevention Act of 2012
                           (enacted October 5, 2012)

          p.l. 112-199     Whistleblower Protection Enhancement Act of 2012
                           (enacted November 27, 2012)

          p.l. 112-239     National Defense Authorization Act for Fiscal Year 2013
                           (enacted January 3, 2013)




                         management deCiSionS


     status of recommendations with no management decisions
     management decisions have been made on all audit reports issued before the beginning of
     this reporting period.

     revised management decisions
     no management decisions were revised during the period.

     agreement with significant management decisions
     the OiG agrees with all significant management decisions regarding audit
     recommendations.

     instances where the agency refused or failed to provide information to the OiG
     during this reporting period, there were no instances where the agency unreasonably
     refused or failed to provide information to the OiG.




18    |   OIG SEMIANNUAL REPORT TO CONGRESS
                                            taBleS
table 1. list of reports: audit and evaluations

     report number                                title                                  date issued
         516          implementation of the current Guidance on economic analysis in
                      sec rulemakings                                                     6/6/2013
         518          use of the current Guidance on economic analysis in
                      sec rulemakings                                                     6/6/2013
         520          library of congress Office of inspector General
                      system review report                                                9/3/2013



table 2. reports issued with costs questioned or funds put to better use
(including disallowed costs)

                                                                        no. of reports       value
a. reports issued prior to this period
      for which no management decision had been made on any
      issue at the commencement of the reporting period                        0              $0
      for which some decisions had been made on some issues at the
      commencement of the reporting period                                     0              $0
b.    reports issued during this period                                        0              $0
                                          total of categories a and b          0              $0
c.    for which final management decisions were made during this period        0              $0
d.    for which no management decisions were made during this period           0              $0
e.    for which management decisions were made on some issues
      during this period                                                       0              $0

                                           total of categories c, d, and e     0              $0




                                                      APRIL 1, 2013 – SEPTEMBER 30, 2013         |   19
table 3. reports with recommendations on which corrective action has not been completed
during this semiannual reporting period, sec management provided the OiG with documentation to
support their implementation of OiG recommendations. in response, the OiG closed 62 recommenda­
tions related to 20 Office of audits and Office of investigations reports. the following table lists recom­
mendations open 180 days or more.

 report number            rec.        issue
 and title                no.         date                   recommendation summary

485 - assessment           8        9/29/2010     implement an agency-wide policy regarding shared
of the sec’s privacy                              folder structure and access rights, ensuring that only
program                                           the employees involved with a particular case have
                                                  access to that data. if an employee backs up additional
                                                  information to the shared resources, only the employee
                                                  and his or her supervisor should have access.
489 - 2010 annual          5         3/3/2011     complete a logical access integration of the homeland
fisma executive                                   security presidential directive 12 card no later than
summary report                                    december 2011, as reported to the Office of manage­
                                                  ment and budget on december 31, 2010.
492 - audit of sec’s       7b        8/2/2011     develop and implement a mechanism to reward
employee recogni­                                 employees for superior or meritorious performance
tion program and                                  within their job responsibilities through lump-sum per­
recruitment, relo­                                formance awards.
cation, and reten­
tion incentives
497 - assessment           4        8/11/2011     ensure that security controls configurations that are
of sec’s continuous                               applied in the production environment are identical
monitoring program                                with those applied in the testing environment.
497 - continued            5        8/11/2011     develop and implement written procedures to ensure
                                                  consistency in the commission’s production and testing
                                                  environments. these procedures should detail the soft­
                                                  ware and hardware components in both environments
                                                  and specify the actions required to maintain consistent
                                                  environments.
501 - 2011 annual           1       2/2/2012      develop and implement a detailed plan to review and
fisma executive                                   update Oit security policies and procedures and to cre­
summary report                                    ate Oit security policies and procedures for areas that
                                                  lack formal policy and procedures.
501 - continued            7        2/2/2012      tailor a baseline security controls set (with rationale) for
                                                  applicable systems in accordance with the guidance in
                                                  national institute of standards and technology (nist),
                                                  Guide for Applying the Risk Management Framework
                                                  to Federal Information Systems: A Security Life Cycle
                                                  Approach, and nist, Recommended Security Controls
                                                  for Federal Information Systems and Organizations.
501 - continued            10       2/2/2012      conduct compliance scans of information technology
                                                  (it) devices, according to the organizationally defined
                                                  frequency in the policy and procedures, to ensure that
                                                  all devices are configured as required by the Office of
                                                  information technology’s configuration management
                                                  policy and procedures.


20   |   OIG SEMIANNUAL REPORT TO CONGRESS
table 3. reports with recommendations, continued
recommendations Open 180 days or more

 report number          rec.     issue
 and title              no.      date                recommendation summary

501 - continued         13     2/2/2012    complete the implementation of the technical solu­
                                           tion for linking multi-factor authentication to personal
                                           identity verification cards for system authentication and
                                           require use of the cards as a second authentication
                                           factor by december 2012.
509 - sec’s con­         3     3/25/2013   ensure a system or protocols are developed to identify
trols Over sensitive/                      and track all sensitive and nonpublic information pro­
nonpublic informa­                         vided to, or received from, the financial stability Over­
tion collected and                         sight council (fsOc), the Office of financial research,
exchanged with the                         or fsOc’s member agencies. this system should track
financial stability                        information owner’s name, date information is received/
Oversight council                          sent, who the information is sent to/received from, and
and Office of                              media used (e.g., cds, thumb drives, etc.).
financial research
509 - continued          4     3/25/2013   ensure documented procedures are developed to
                                           ensure that individuals who serve as information owners
                                           for sensitive and nonpublic information provided to, or
                                           received from, the financial stability Oversight coun­
                                           cil (fsOc), the Office of financial research or fsOc
                                           member agencies, properly mark the documents (or
                                           files containing documents) according to the sensitivity
                                           level.
512 - 2012 fisma         1     3/29/2013   revise it security assessment procedures to ensure
executive summary                          they are consistent with current practices and include
report                                     verbiage to implement continuous monitoring and
                                           requirements for ongoing assessment of a subset of
                                           critical security controls.
512 - continued          2     3/29/2013   develop and implement a continuous monitoring strate­
                                           gy in accordance with nist special publication 800-137,
                                           Information Security Continuous Monitoring for Federal
                                           Information Systems and Organizations and nist spe­
                                           cial publication 800-37, revision 1, Guide for Applying
                                           Risk Management Framework to Federal Information
                                           Systems: A Security Life Cycle Approach.
512 - continued          3     3/29/2013   continue to implement the existing project for the
                                           development and implementation of a comprehensive
                                           risk management strategy in accordance with nist
                                           special publication 800-37, revision 1, Guide for Apply­
                                           ing Risk Management Framework to Federal Informa­
                                           tion Systems: A Security Life Cycle Approach, address­
                                           ing risk at the organization level, the mission and
                                           business process level and the information system level.




                                               APRIL 1, 2013 – SEPTEMBER 30, 2013               |   21
table 3. reports with recommendations, continued
recommendations Open 180 days or more

 report number         rec.     issue
 and title             no.      date                 recommendation summary

512 - continued         4     3/29/2013   ensure the Office of risk management coordinates with
                                          the Office of information technology to provide train­
                                          ing to management throughout the commission and
                                          educate staff on their roles and responsibilities related to
                                          operating in a three-tiered risk management framework.
512 - continued         7     3/29/2013   review and update the existing it security awareness
                                          training program to a) include specific role-based train­
                                          ing based on the duties and responsibilities for staff
                                          with information security roles; and b) track the prog­
                                          ress and completion of it staff’s role-based training.


512 - continued         8     3/29/2013   review all plan of action and milestones (pOa&m) and
                                          update the pOa&m tracking system to include future
                                          remediation dates and ensure pOa&ms are closed or
                                          mitigated to an acceptable level.
514 - audit of the      4     3/29/2013   complete review of non-dormant registrant accounts
sec’s filing fees                         on the basis of the cost-benefit analysis the Office of
program                                   financial management devised.
515 - review of the     2     3/27/2013   determine whether the commission has certification
sec’s systems certi­                      and accreditation files that are stored on its contractor’s
fication and accred­                      off-site servers and, in the future, require contractor to
itation process                           maintain all commission files on servers the commis­
                                          sion owns and manages.
pi-09-05 – sec          1     2/22/2010   ensure, on a commission-wide basis, that all regional
access card                               offices are capable of capturing and recording building
readers in regional                       entry and exit information of commission employees.
Offices
rOi-551 – allega­       1     3/30/2011   employ technology that will enable the agency to
tions of unauthor­                        maintain records of phone calls made from and
ized disclosures of                       received by sec telephones.
nonpublic informa­
tion during sec
investigations
im-13-101 – long-       1     3/25/2013   institute effective written policies and procedures to
distance telework                         ensure that bargaining unit and non-bargaining unit
agreements                                employees who participate in full-time, long distance
                                          telework are paid properly and in a consistent manner.
im-13-101 –             2     3/25/2013   review the telework arrangements for all employees
continued                                 who participate in full-time, long-distance telework and
                                          make changes as necessary to ensure that the official
                                          duty station and locality pay are set appropriately and
                                          consistently for those employees.




22   |   OIG SEMIANNUAL REPORT TO CONGRESS
table 4. summary of investigative activity

  cases                                                                            number
  cases Open as of 3/31/2013                                                         13
  cases Opened during 4/1/2013 - 9/30/2013                                           12
  cases closed during 4/1/2013 - 9/30/2013                                            8
  total Open cases as of 9/30/2013                                                   17
  referrals to department of Justice for prosecution                                  8
  prosecutions                                                                        0
  convictions                                                                         0
  referrals to OiG Office of audits                                                   1
  referrals to agency for administrative action                                       4

  preliminary inquiries                                                            number
  inquiries Open as of 3/31/2013                                                     26
  inquiries Opened during 4/1/2013 - 9/30/2013                                       25
  inquiries closed during 4/1/2013 - 9/30/2013                                       23
  total Open inquiries as of 9/30/2013                                               28
  referrals to OiG Office of audits                                                   2
  referrals to agency for administrative action                                       1

  disciplinary actions (including referrals made in prior periods)                 number
  removals (including resignations and retirements)                                   2
  suspensions                                                                        0
  reprimands                                                                         0
  warnings/Other actions                                                               1



table 5. summary of complaint activity

  complaints received during the period                                            number
  complaints pending disposition at beginning of period                               17
  hotline complaints received                                                        183
  Other complaints received                                                          122
  total complaints received                                                         305
  complaints on which a decision was made                                            317
  complaints awaiting disposition at end of period                                     5

  dispositions of complaints during the period                                     number
  complaints resulting in investigations                                               8
  complaints resulting in inquiries                                                   21
  complaints referred to OiG Office of audits                                          2
  complaints referred to Other agency components                                    146
  complaints referred to Other agencies                                                3
  complaints included in Ongoing investigations or inquiries                          17
  response sent/additional information requested                                     64
  no action needed                                                                   56




                                                      APRIL 1, 2013 – SEPTEMBER 30, 2013   |   23
table 6. references to reporting requirements of the inspector General act

     section    inspector General act reporting requirement                                    pages
     4(a)(2)    review of legislation and regulations                                              18
     5(a)(1)    significant problems, abuses, and deficiencies                       6–8; 11–13; 15–17
     5(a)(2)    recommendations for corrective action                                     11–13; 16–17
     5(a)(3)    prior recommendations not yet implemented                                     20–22
     5(a)(4)    matters referred to prosecutive authorities                                 15–17; 23
     5(a)(5)    summary of instances where the agency
                unreasonably refused or failed to provide information to the OiG                   18
     5(a)(6)    list of OiG audit and evaluation reports issued during the period                  19
     5(a)(7)    summary of significant reports issued during the period                   11–13; 15–17
     5(a)(8)    statistical table on management decisions with
                respect to questioned costs                                                        19
     5(a)(9)    statistical table on management decisions on
                recommendations that funds be put to better use                                    19
     5(a)(10)   summary of each audit, inspection or evaluation report
                Over six months Old for which no management decision has been made                 18
     5(a)(11)   significant revised management decisions                                           18
     5(a)(12)   significant management decisions with which the
                inspector General disagreed                                                        18
     5(a)(14)(b) date of the last peer review conducted by another OiG                             25

     5(a)(16)   peer reviews conducted of another Office of inspector General                  25–26




24    |   OIG SEMIANNUAL REPORT TO CONGRESS
                appendix a

      peeR ReVieWS of oig opeRationS

peer review Of the sec OiG’s                            peer review Of the sec OiG’s
audit OperatiOns                                        investiGative OperatiOns
In accordance with CIGIE quality control and            During the semiannual reporting period, the SEC
assurance standards, an OIG audit team assesses         OIG did not have an external peer review of its
another OIG’s audit functions approximately every       investigative operations. Peer reviews of Designated
3 years. The most recent external peer review of        Federal Entity OIGs, such as the SEC OIG, are
the SEC OIG’s audit operations was conducted            conducted on a voluntary basis. The most recent
last year.                                              peer review of the SEC OIG’s investigative opera­
                                                        tions was conducted by the OIG of the U.S. Equal
The Legal Services Corporation (LSC) OIG con­           Employment Opportunity Commission (EEOC).
ducted an assessment of the Office of Audit’s system    The EEOC OIG issued its report on the SEC OIG’s
of quality control for the period ending March 31,      investigative operations in July 2007. That report
2012. The review focused on whether the SEC OIG         concluded that the SEC OIG’s system of quality for
established and complied with a system of quality       the investigative function conformed to the profes­
control that was suitably designed to provide the       sional standards established by the President’s Coun­
SEC OIG with a reasonable assurance of conform­         cil on Integrity and Efficiency and the Executive
ing with applicable professional standards.             Council on Integrity and Efficiency (now CIGIE).

On August 23, 2012, the LSC OIG issued its report,      A peer review of the investigative operations of the
concluding that the SEC OIG complied with its           SEC OIG is scheduled for FY 2014.
system of quality control and that the system was
suitably designed to provide the SEC OIG with
reasonable assurance of performing and reporting        peer review Of the library Of
in conformity with applicable government auditing       cOnGress OiG’s audit OperatiOns
standards in all material respects. On the basis of     In accordance with CIGIE quality control and assur­
its review, the LSC OIG gave the SEC OIG a peer         ance standards, an OIG audit team assesses another
review rating of “pass.” (Federal audit organiza­       OIG’s audit functions approximately every 3 years.
tions can receive a rating of “pass,” “pass with        Toward that end, the SEC OIG assessed the Library
deficiencies,” or “fail.”) The LSC OIG did not          of Congress (LOC) OIG, Office of Audit’s system of
make any recommendations. Further, there are no         quality control in effect for the year ended March
outstanding recommendations from previous peer          31, 2013. The review focused on whether the LOC
reviews of the SEC OIG’s audit organization.            OIG had established and complied with a system
                                                        of quality control that was designed to provide the
The peer review report is available on the SEC OIG      LOC OIG with reasonable assurance that its audits
website at http://www.sec-oig.gov/Reports/Other/        conform with applicable professional standards.
FinalPeerReviewReport-SEC.pdf.




                                                       APRIL 1, 2013 – SEPTEMBER 30, 2013               |   25
On September 3, 2013, the SEC OIG issued a letter      review of the investigative operations of the OIG of
report to the LOC OIG concluding that the system       the Federal Election Commission (FEC). The review
of quality control for the LOC OIG’s audit organi­     covered the period of April 2011 through March
zation in effect for the year ended March 31, 2013,    2013. The OIG conducted the peer review in accor­
had been suitably designed and complied with to        dance with the “Qualitative Assessment Review
provide the LOC OIG with reasonable assurance          Guidelines for Investigative Operations of Federal
of performing and reporting in conformity with         Offices of Inspector General, dated
applicable professional standards in all material      December 2011.”
respects. On the basis of its review, the SEC OIG
gave the LOC OIG a peer review rating of “pass.”       In conducting its review, the SEC OIG held an
The SEC OIG’s report included 1) a finding that        entrance briefing, reviewed and analyzed the FEC
the SEC OIG did not consider significant enough to     OIG’s investigations manual and other documents,
affect the opinion expressed in its report; and 2) a   interviewed relevant staff members, and held an
recommendation related to that finding. The LOC        exit conference. The SEC OIG completed its peer
OIG agreed with the SEC OIG’s recommendation           review of the FEC OIG’s investigative operations
and has implemented it.                                in September 2013. On September 23, 2013, the
                                                       SEC OIG issued a letter report concluding that, in
                                                       its opinion, the internal safeguards and management
peer review Of the federal                             procedures for the investigative functions of the
electiOn cOmmissiOn OiG’s                              FEC OIG in effect for the period of its review were
investiGative OperatiOns                               in compliance with the quality standards established
During the semiannual reporting period, the SEC        by CIGIE.
OIG’s Office of Investigations conducted a peer




26   |   OIG SEMIANNUAL REPORT TO CONGRESS
                    appendix B

           oig SeC emploYee SuggeStion

             pRogRam annual RepoRt

Overview                                                   summary Of emplOyee
The OIG established the OIG SEC Employee Sug­              suGGestiOns and alleGatiOns
gestion Program in accordance with Section 966 of          Between October 1, 2012, and September 30, 2013,
the Dodd-Frank Wall Street Reform and Consumer             the OIG received and analyzed 27 suggestions or
Protection Act (Dodd-Frank Act), which required            allegations. The tables on page 28 show the follow­
the Inspector General to establish a suggestion            ing details:
program for employees of the SEC. The OIG estab­
lished its Employee Suggestion Program on Septem­          (1) the nature, number, and potential benefits of
ber 27, 2010. As required by the Dodd-Frank Act,                suggestions received;
the SEC OIG has prepared this third annual report          (2) the nature, number, and seriousness of allega­
containing a description of suggestions and allega­             tions received;
tions received, recommendations made or action             (3)	 recommendations that the OIG made or actions
taken by the OIG, and action taken by the SEC                   it took in response to allegations that were
in response to suggestions or allegations from                  substantiated; and
October 1, 2012, through September 30, 2013.               (4) actions that the SEC took in response to sugges­
                                                                tions or allegations.
Through the SEC OIG employee suggestion pro­
gram, the OIG receives suggestions from agency             Note: Some suggestions or allegations fit into more
employees for improvements in the SEC’s work               than one category, so the numbers in the charts
efficiency, effectiveness, and productivity, and use of    below add up to more than the total number of
its resources, as well as allegations by employees of      allegations or suggestions we received.
waste, abuse, misconduct, or mismanagement within
the SEC. To make it easier for employees to partici­
pate in the program, the OIG has set up an elec­
tronic mailbox and telephone hotline that employees
can use to make their suggestions or allegations. The
OIG has established formal policies and procedures
that encompass the receipt and handling of employee
suggestions and allegations under the program.




                                                          APRIL 1, 2013 – SEPTEMBER 30, 2013             |   27
     nature and potential benefits of suggestion                                              number
     increase efficiency or productivity                                                         5
     increase effectiveness                                                                     6
     increase the use of resources or decrease costs                                            9

     nature and seriousness of allegation                                                     number
     mismanagement and/or discrimination                                                        4
     waste of sec resources                                                                     8
     misconduct by an employee                                                                   1


     action taken by the OiG in response to suggestion or allegation                          number
     memorandum to or communication with the sec requesting action be taken                     11
     referred to OiG Office of investigations                                                   0
     referred to OiG Office of audits                                                            1
     OiG Office of investigations opened preliminary inquiry                                    0
     researched issue, but no further action by the sec was necessary                            8

     action taken by sec management                                                           number
     sec management took specific action to address the suggestion                              6
     the sec decided to secure new technology in response to the suggestion                     0
     sec management is considering the suggestion in context of existing procedures              2
     sec management initiated an internal review                                                 2



examples Of suGGestiOns                                ability to provide automatic updates or alerts to
and alleGatiOns                                        examiners. The OIG forwarded this suggestion to
                                                       the Office of Information Technology, the Division
updating sec information systems                       of Enforcement, and the Division of Economic and
The OIG received a suggestion about updating           Risk Analysis for their consideration when explor­
certain SEC information systems—the Division           ing system capabilities and future system upgrades.
of Enforcement Name Relationship Search Index          The OIG expects management’s response to this
(NRSI) and the SEC Tips, Complaints, and Referrals     suggestion in November 2013.
(TCR) system. The employee suggested modify­
ing the NRSI and the TCR system to automatically       information-sharing blog
search for and send updated information about spe­     An employee suggested that the agency create an
cific registrants that National Examination Program    “internal SEC community blog” where SEC employ­
examiners are currently examining. Those automatic     ees could ask questions and also answer questions
searches would assist the examiners in ensuring that   that other SEC employees pose. The employee stated
they have the most current information available.      that such a blog would leverage staff knowledge.
                                                       The OIG determined that certain offices within the
On the basis of the OIG’s review of the suggestion,    SEC have created information sharing tools, and
we determined that there are currently procedures      a	similar	project	is	in	the	queue	for	certain	other	
in place to alert examination staff if a new TCR       offices, although an agencywide information sharing
related to an open examination is received. How­       blog has not been established.
ever, neither the TCR system nor NRSI has the




28    |   OIG SEMIANNUAL REPORT TO CONGRESS
The OIG forwarded this suggestion to the Office           online reporting process was not user friendly and
of Information Technology SharePoint Commit­              was cumbersome.
tee for consideration. The OIG received a response
indicating that the Office of Public Affairs is work­     The OIG discussed this allegation with the OIT.
ing on assessing the feasibility of implementing this     The OIT informed us that the telephone replace­
suggestion and is looking at a variety of enterprise      ment process began after the SEC received notifica­
collaboration tools.                                      tion that the prior telephone models would no lon­
                                                          ger be serviced. The OIT stated that it used a pilot
centralized database of                                   program to test the new telephone model before
electronic communications                                 it was selected as the agencywide standard model.
An employee suggested that the SEC create a cen­          The OIG also reviewed the OIT’s online reporting
tralized database of electronic communications (i.e.,     mechanism and noted that a listed email address did
emails) that the Office of Compliance Inspections         not appear to be functional.
and Examinations (OCIE) requests and receives
during examinations. Specifically, the employee sug­      Although the OIG determined that the telephones
gested that the emails collected during examinations      were replaced because of an upcoming discontinu­
be archived into an accessible, centralized database      ation of service, the OIG forwarded the suggestion
to allow examiners to perform keyword searches            to the OIT to consider (1) providing additional
during examinations to determine whether elec­            communication to employees about the telephone
tronic communications from previous examinations          replacement process; (2) implementing policies and
contain the same issues or concerns, as well as any       procedures designed to enhance direct communi­
type of related information.                              cation with employees about future technology
                                                          changes; and (3) whether additional methods for
The OIG determined that the creation and mainte­          employees to contact the OIT with comments or
nance of a centralized database of emails could be        suggestions would be beneficial. The OIG expects
beneficial for data mining, as well as trend analysis     management’s response to this suggestion in
and risk assessment. During preliminary discus­           November 2013.
sions about this suggestion, OCIE and the Office
of General Counsel acknowledged the potential             allocation of laptops
benefits, but indicated the need to consider issues       The OIG received an allegation about the alloca­
such as any legal and privacy ramifications of hous­      tion and acquisition of new laptops in OCIE. The
ing these emails in a centralized database. The OIG       employee stated that OCIE employees were offered
expects management’s response to this suggestion in       a choice between two laptop models, but examin­
October 2013.                                             ers’ needs were not taken into account, and many
                                                          employees did not receive the model they selected
telephone replacement and                                 and had to work with inferior computers.
Online reporting process
The OIG received an allegation about the SEC’s            The OIG discussed this allegation with the OIT.
replacement of agency telephones. Specifically, the       The OIT indicated that various laptop models were
employee stated that the new telephones were an           tested and that the models offered and provided to
unnecessary and wasteful expense and employees            examiners were selected on the basis of user feed­
did not receive adequate notification of this technol­    back. The OIT stated that it was unable to provide
ogy change. The employee also stated that the OIT’s       every examiner with his or her first choice of model




                                                         APRIL 1, 2013 – SEPTEMBER 30, 2013               |    29
because of budget constraints and the large number      cOnclusiOn
of requests for a particular model. The OIT further     The OIG continues to be pleased with the effective­
stated that both models were designed to meet the       ness of the OIG SEC Employee Suggestion Program.
needs of examination staff. On the basis of the OIG’s   We have received favorable responses from the
review, it appears that examiners’ needs were taken     agency on several suggestions that we submitted for
into account in connection with the allocation and      its consideration. Many suggestions have resulted in
acquisition of new laptops, and it does not appear      positive changes that will improve the efficiency and
that employees were asked to work with equipment        effectiveness of employees or conserve the agency’s
that was not designed to meet their needs. Therefore,   resources. The OIG anticipates receiving favorable
the OIG determined that no further action was war­      responses to suggestions that the agency is currently
ranted in response to this allegation.                  reviewing and will continue to encourage employees
                                                        to make suggestions through the program.




30   |   OIG SEMIANNUAL REPORT TO CONGRESS
         OiG cOntact infOrmatiOn

Help ensure the integrity of SEC operations. Report to the OIG
suspected fraud, waste, or abuse in SEC programs or operations as
well as SEC staff or contractor misconduct. Contact the OIG by:

phone	           Hotline          877.442.0854
                 Main Office      202.551.6061

web-bASed        www.sec-oig.gov/ooi/hotline.html
hoTlIne


fAx 	            202.772.9265

mAIl	            Office of Inspector General
                 U.S. Securities and Exchange Commission
                 100 F Street, NE Washington, DC 20549–2977

emAIl	           oig@sec.gov



Information received is held in confidence upon request. While
the OIG encourages complainants to provide information on how
they may be contacted for additional information, anonymous
complaints are also accepted.
This report is available on the

Inspector General’s website

www.sec.gov/about/offices

/inspector_general.shtml.
